<html>
<title> - JUSTICE FOR ALL: AN EXAMINATION OF THE DISTRICT OF COLUMBIA JUVENILE JUSTICE SYSTEM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 JUSTICE FOR ALL: AN EXAMINATION OF THE DISTRICT OF COLUMBIA JUVENILE 
                             JUSTICE SYSTEM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2005

                               __________

                           Serial No. 109-92

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-770                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 28, 2005.................................     1
Statement of:
    Cardin, Hon. Benjamin L., a Representative in Congress from 
      the State of Maryland; and Hon. Steny H. Hoyer, Minority 
      Whip, a Representative in Congress from the State of 
      Maryland...................................................    20
        Cardin, Hon. Benjamin L..................................    20
        Hoyer, Hon. Steny H......................................    34
    Satterfield, Lee F., presiding judge, District of Columbia 
      Family Court; Eugene Hamilton, senior judge, District of 
      Columbia Superior Court; Charles H. Ramsey, chief of 
      police, District of Columbia Metropolitan Police 
      Department; and Vincent Schiraldi, director, District of 
      Columbia Youth Rehabilitation Services.....................    42
        Hamilton, Eugene.........................................    58
        Ramsey, Charles H........................................    77
        Satterfield, Lee F.......................................    42
        Schiraldi, Vincent.......................................    83
Letters, statements, etc., submitted for the record by:
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:
        Prepared statement of....................................     4
        Prepared statement of Mr. Black..........................    17
    Cardin, Hon. Benjamin L., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    23
    Hamilton, Eugene, senior judge, District of Columbia Superior 
      Court, prepared statement of...............................    60
    Hoyer, Hon. Steny H., Minority Whip, a Representative in 
      Congress from the State of Maryland, prepared statement of.    36
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................    12
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................   111
    Ramsey, Charles H., chief of police, District of Columbia 
      Metropolitan Police Department, prepared statement of......    80
    Satterfield, Lee F., presiding judge, District of Columbia 
      Family Court, prepared statement of........................    45
    Schiraldi, Vincent, director, District of Columbia Youth 
      Rehabilitation Services, prepared statement of.............    86
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     7


 JUSTICE FOR ALL: AN EXAMINATION OF THE DISTRICT OF COLUMBIA JUVENILE 
                             JUSTICE SYSTEM

                              ----------                              


                        FRIDAY, OCTOBER 28, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Davis of Virginia, Issa, Dent, 
Waxman, Cummings, Clay, Watson, Van Hollen, Ruppersberger, 
Higgins, and Norton.
    Also present: Representative Cardin.
    Staff present: Keith Ausbrook, chief counsel; John Hunter, 
counsel; Rob White, press secretary, Drew Crockett, deputy 
director of communications; Victoria Proctor, senior 
professional staff member; Shalley Kim, professional staff 
member; Teresa Austin, chief clerk; Kristin Amerling, minority 
general counsel; Karen Lightfoot, minority senior policy 
advisor & communications director; Michelle Ash, minority chief 
legislative counsel; Mark Stephenson, minority professional 
staff member; Earley Green, minority chief clerk; Cecelia 
Morton, minority officer manager; and Kim Trinca, minority 
counsel.
    Chairman Tom Davis. The committee will come to order.
    Welcome to today's hearing entitled, ``Justice for All: An 
Examination of the D.C. Juvenile Justice System.'' This is a 
continuation of the Government Reform Committee's oversight of 
the city's juvenile justice system.
    Earlier this year, Police Chief Charles Ramsey testified 
before the committee that, in 2004, Metropolitan Police 
Department officers arrested approximately 2,950 juveniles for 
crimes ranging from homicide, robbery, and weapons violations, 
to various misdemeanor offenses.
    The District is the defendant in the Jerry M. class-action 
lawsuit filed in 1985 by the D.C. Public Defender Services and 
the American Civil Liberties Union. The complaint alleged that 
the District failed to provide adequate care and rehabilitation 
services to the committed youth at the Oak Hill Youth Center.
    In July 1986, the parties entered into a Consent Decree, 
and a monitor was appointed to assess the District's 
compliance. Despite the existence of the Consent Decree, for 
many years the city failed to address the atrocious conditions 
at Oak Hill, allowing the committed youth to languish in an 
overcrowded facility that was unsafe and unhealthy.
    Oak Hill has become a symbol of a broken system. Too many 
of the city's young people are finding themselves victims of 
crime. Too many of the city's youth are committing crimes, many 
of them violent. And too often, those who enter the city's care 
are not getting rehabilitated.
    After years of non-compliance and several million dollars 
in fines, Mayor Anthony Williams' administration is continuing 
its commitment to terminate the city's involvement in lengthy 
court cases, as it has done for D.C. child welfare services in 
the LaShawn case.
    The District averted a complete court takeover when it 
agreed to the appointment of an arbiter. In order to comply 
with the terms of the Consent Decree, the city must perform a 
top-to-bottom reorganization of the YSA, the Youth Services 
Administration. Therefore, YSA was renamed the Youth 
Rehabilitation Services [YRS], and elevated to cabinet-level 
status.
    A youth who is arrested in D.C. comes under the auspices of 
the Metropolitan Police Department, the D.C. Family Court, and 
Youth Rehabilitation Services. Coordination among these 
agencies is critical.
    We hope this hearing will provide a forum to address 
system-wide problems and review implementation of new 
initiatives to improve operation of the city's juvenile justice 
system. What I don't want to see is the District of Columbia 
juvenile justice system function as a feeder to the adult penal 
and correctional systems. Kids should not be sent to languish 
in a chaotic system that places the public and the children in 
danger.
    The Post recently reported on the death of Marcel Merritt, 
a 16-year-old who had been under the supervision of the 
District of Columbia Youth Rehabilitation Services. Marcel was 
suspected of several killings and robberies, and had been 
charged twice for gun possession.
    Despite recommendations from Peaceoholics, a non-profit 
group that had mentored him, to keep him at a detention center, 
he was released to his relatives' care in August, and then 
couldn't be located by District officials. The system simply 
lost track of Marcel. The death of Marcel Merritt raises 
serious concerns regarding the city's juvenile justice system. 
I have written the District; I hope they can shed some light on 
this incident.
    On the upside, the Post ran an article in August that 
praised Vincent Schiraldi, the new Director of the Youth 
Rehabilitation Services. In January, the Mayor appointed Mr. 
Schiraldi to lead the overhaul of YRS. The department has also 
made great strides under his leadership, but further 
improvements to the system are needed.
    Today, we want to hear about the District's reform 
strategies. We will not only hear from Mr. Schiraldi, but also 
from Chief Ramsey, and Judge Satterfield, the presiding judge 
of the District of Columbia Family Court, and Judge Hamilton, 
senior judge of the District Superior Court and former chairman 
of the Mayor's Blue Ribbon Commission on Youth Safety and 
Juvenile Justice Reform. I look forward to an informative 
discussion.
    The committee will also examine H.R. 316, a bill introduced 
by Congressman Ben Cardin, which provides for the disposition 
of Federal property located in Anne Arundel County, MD; a 
portion of which is currently used by the District of Columbia 
as the Oak Hill juvenile detention facility. I want to welcome 
Congressman Cardin and Mr. Hoyer. Both will speak on this 
proposal today.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T4770.001
    
    [GRAPHIC] [TIFF OMITTED] T4770.002
    
    Chairman Tom Davis. Mr. Waxman.
    Mr. Waxman. Mr. Chairman, thank you for holding this 
important hearing to examine the District's juvenile justice 
system, which for years has been plagued with problems. I know 
that you are dedicated to finding ways to fix this system.
    I believe that any effort to improve the juvenile justice 
system must include a focus on preventing youth from entering 
the system in the first place. I am pleased to hear that there 
are new efforts in the District for early intervention, 
prevention, and education. And I look forward to hearing more 
about them today.
    Also, it is imperative that any juvenile justice system 
deal with what happens to juveniles who have been committed, 
upon their release. After transitioning out of the system, 
those children, all too often, are lost.
    The District, as well as other jurisdictions, does not have 
a good track record with providing a continuum of care for such 
youth. Many times, juvenile offenders are released back into 
the situation that led them to crime in the first place. We 
need better training and education for juveniles while they are 
in custody, and better opportunities and aftercare once they 
are out.
    Finally, we need to realize that children are different 
from adults, even those children that commit crimes. They have 
different needs and ways of being rehabilitated. These children 
need community-based services and support systems. I understand 
that the current plan for revamping the District's juvenile 
justice system involves creating a number of home-like 
facilities. I am interested in hearing how these facilities 
will work, how many juveniles will be in those settings, and 
how many juveniles will remain at the larger facilities.
    In addition to reviewing the overall juvenile justice 
system run by the District, I understand that this hearing will 
also address the specific issues of the Oak Hill Youth Center 
in Laurel, MD. Everyone agrees that the current conditions at 
Oak Hill cannot continue. Under the District's plans, the 
current facilities are due to be torn down. I believe there is 
widespread support for that initiative.
    The issue is, what happens to the property? The District 
wants to build new, smaller District juvenile justice 
facilities on the same site. Others have suggested that the 
District build on other locations. And I am hopeful that all of 
the interested parties can work together to resolve this issue. 
I look forward to hearing the thoughts of my colleagues from 
Maryland on this property.
    We all share the goals of public safety, and rehabilitation 
and accountability for young people in the juvenile justice 
system. Today's hearing can bring us closer to those goals. 
Thank you, Mr. Chairman.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T4770.003
    
    [GRAPHIC] [TIFF OMITTED] T4770.004
    
    [GRAPHIC] [TIFF OMITTED] T4770.005
    
    Chairman Tom Davis. Thank you very much.
    Ms. Norton, any opening statement?
    Ms. Norton. Thank you, Mr. Chairman.
    Chairman Tom Davis. Let me just state, all Members will 
have until the end of the day to submit written statements.
    Ms. Norton. Thank you, Mr. Chairman, for working with me on 
this hearing concerning what the District and the Federal 
Government are doing to improve the life chances of children 
committed to the city's juvenile justice system, and the 
progress the city is making in meeting court and congressional 
juvenile justice mandates.
    Notwithstanding Home Rule and the District's responsibility 
for its own children, this is an appropriate congressional 
hearing, because a major part of the juvenile justice system, 
the D.C. courts, are Article I courts, fall under Federal 
jurisdiction; although the applicable laws are enacted and 
enforced by the District.
    Local and State governments, regardless of the nature and 
income of their residents, have been significantly unsuccessful 
in answering the question: What should society do when children 
commit crimes? Judging by newspaper reports, the District, 
Maryland, and Virginia are not exceptions. However, the 
District, one of America's big cities, has more of the 
conditions that breed not only juvenile delinquency, but also 
the serious crimes that children in cities and suburbs alike 
commit today.
    Regrettably, the District's facilities themselves have been 
so inadequate that public and governmental attention have been 
disproportionately focused on the facilities, more so than on 
the children. The District has responded by opening a new, 
first-class facility in the city for juvenile detainees, a very 
important step in reducing the housing of children who are 
being detained separately from those who have been committed.
    In addition, the Forest Haven juvenile facility was closed 
several years ago. This leaves one facility for detainees and 
committed youth, the Oak Hill Youth Center located in Laurel, 
MD. The committee will be particularly interested in this 
facility today.
    I appreciate the thinking of my good friend and colleague, 
Representative Ben Cardin, due to testify here today, who has 
worked to find a practical way to move Oak Hill from his 
district, and has offered some innovative and attractive ideas.
    These ideas, however, depend on finding a realistic 
alternative site, as I believe he recognizes; notwithstanding 
that his bill, H.R. 316, contemplates the closure of Oak Hill 
and the transfer of the land to the National Park Service and 
to his district, Anne Arundel County, MD.
    Representative Cardin's bill seeks a ``win-win,'' with the 
bordering National Security Agency paying for the construction 
of a new facility. Finding a location in the District, as his 
bill prefers, or elsewhere, poses a structural barrier to 
moving such a bill, however. The District is a small and 
constricted city whose land is disproportionately occupied by 
the Federal Government; the major reason that Congress located 
the facility outside of the city in the first place.
    I am pleased that today's hearing presents all involved an 
opportunity to get this and other ideas on the table for public 
discussion. This hearing will offer a bonus if it moves us 
pragmatically to solutions which burden no community, while 
focusing us on the District's most disadvantaged children.
    These are not children in a state of teenage rebellion 
typical of these ages. These children have been cheated out of 
childhood itself. Most have been cheated from the beginning, 
from birth, out of every child's birthright: two caring 
parents, or an extended family. Many are fatherless, have 
struggling single mothers, or no family; live in high-crime 
neighborhoods long ago deserted by jobs, where thugs ply the 
underground economy that has replaced the jobs once available 
to their fathers and grandfathers.
    We are all implicated in making a mess of the lives of 
these children in our country. The bankruptcy of national, 
State, and local thinking and approaches is perhaps best shown 
by the move toward more and more adult sentences, even for 
small children, and the outcry by some when the Supreme Court 
ruled that juveniles under 18 should not be subjected to the 
death penalty.
    I hope that today's hearing will help us get beyond where 
and how juveniles are housed, to how to keep them out of 
detention and commitment, and how to make sure that those who 
nevertheless must be committed do not turn the mistakes of 
childhood into the crimes of manhood.
    I will listen to all of today's witnesses with intense 
interest. I am grateful to each of the witnesses for their work 
and efforts for the District, and for coming forward today. 
Thank you, Mr. Chairman.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T4770.068

[GRAPHIC] [TIFF OMITTED] T4770.069

[GRAPHIC] [TIFF OMITTED] T4770.070

    Chairman Tom Davis. Thank you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. First thing, thank you, Mr. Chairman, 
for this hearing. I think it is a very important hearing. We 
have two major priorities at this hearing today. And 
Congresswoman Norton, I agree with you that these children in 
the detention center, whether it is Washington, DC, or anywhere 
in our country, are very high priority, one of our highest 
priorities in the criminal justice system. And we have to get 
to these children before they become adults, before they get 
out into our society, and give them the chance to be functional 
members of our community.
    We also have another priority here, though. And that is the 
priority of the land where Oak Hill is located. Just recently, 
the decision was made to bring over 5,000 jobs to Fort Meade 
and the NSA area. This area was chosen because NSA now exists 
with Fort Meade. NSA is one of the country's oldest and largest 
intelligence agencies. It plays a critical role in fighting the 
war against terror, and also provides real-time intelligence 
for our war fighters in Iraq and Afghanistan.
    Now, one of the reasons that the commission, the BRAC 
Commission, decided to bring the jobs into this area is because 
it had the ability to grow near NSA and Fort Meade. In the 
intelligence arena, it is not only our NSA and our military and 
the CIA, but it is also the private sector that works with them 
and has contracts with NSA. And they tend to locate near this 
area.
    So we will have a tremendous growth along the 295 corridor, 
and Oak Hill is needed as a part of this growth with respect to 
NSA, or the private sector that works with NSA. This should be 
a ``win-win'' situation for all. The land is valuable enough 
that we should be able to sell the land, or whatever we do with 
the land, and build a first-class, functional facility for Oak 
Hill.
    The problem and the issue we have to resolve is: Where do 
we put the facility? And it is very important that we 
prioritize where we are going to put this facility. And we 
should be able to resolve this issue by sitting down together 
and finding out what is best for our juveniles from Washington, 
DC, and also for our national security.
    I support Mr. Cardin's H.R. 316. I am glad that both of my 
friends from Maryland are here, Congressman Hoyer and 
Congressman Cardin, and I look forward to your testimony. Thank 
you.
    Chairman Tom Davis. Thank you.
    Ms. Watson. Mr. Chairman.
    Chairman Tom Davis. Yes, ma'am?
    Ms. Watson. Can I make an opening statement?
    Chairman Tom Davis. Yes.
    Ms. Watson. Mr. Chairman, thank you for holding this most 
important hearing on an issue that has major short and long-
term effects on the District of Columbia, and really around the 
country. Rehabilitation of our Nation's youth after they have 
committed crimes is vital for them to become law-abiding 
citizens and make positive contributions to society.
    D.C.'s Youth Rehabilitation Services must operate 
cohesively and productively, so that when these youth finish 
their sentences they will be ready to face a brighter future.
    In my home State of California, nearly 6,000 young people 
are hospitalized every year for some form of violent injury 
they receive on the streets, including assault, child abuse, 
domestic violence, and rape. This number does not include 
incidents inside correctional facilities, where violence 
happens on a regular basis.
    Many youth who commit crimes come from broken homes, 
disastrous backgrounds; are in need of more than just a program 
to change their thought patterns and habits. They need parental 
support. Many of these youths have never had a parent at home, 
and look to the streets to provide their surrogate mothers and 
fathers.
    It is our job as legislators to ensure that whatever crimes 
they have committed before entering a correctional institution, 
they will not commit them again, and look to become leaders, 
not followers.
    If a youth is arrested by the D.C. Metropolitan Police 
Department, and is placed in a juvenile detention facility, 
that facility should operate under acceptable standards. It 
should not be another haven for crime and danger. Correctional 
institutions should not be as dangerous as on the streets. Yes, 
there are youth in their facilities that have significant 
problems, but their lives should not be lost or put in distress 
while serving their time.
    In a time of budget cuts and financial scarcity in all 
areas of Government, I know it is extremely hard to have the 
most elaborate program in these institutions. It is also 
important to realize that these are our children--all of them. 
Yes, they have made mistakes; but they will be a part of this 
society once they are released. We want them to leave the 
rehabilitation facilities rehabilitated; not worse than they 
were when they came in.
    Mr. Chairman, our goal should be to do whatever we can to 
orient correctional facilities more toward rehabilitation, and 
less toward punishment. We must ensure that the medical, 
psychological, educational, and vocational needs are met for 
these youth in D.C. and elsewhere in our Nation.
    And so thank you for your willingness to come, the members 
of the panel, and testify. And I appreciate all of your efforts 
in continuing to make the District of Columbia's Youth 
Rehabilitation Services the best in the Nation and a model for 
the rest of the Nation. And please let us know what we can do 
to help in these efforts.
    Thank you, Mr. Chairman. I yield back.
    Chairman Tom Davis. Well, thank you very much. Again, 
Members will have 7 days to submit opening statements for the 
record.
    I would ask unanimous consent that the statement of Bill 
Black, the Deputy Director of the National Security Agency, be 
entered into the official record. Without objection, so 
ordered.
    [The prepared statement of Mr. Black follows:]

    [GRAPHIC] [TIFF OMITTED] T4770.006
    
    [GRAPHIC] [TIFF OMITTED] T4770.007
    
    [GRAPHIC] [TIFF OMITTED] T4770.008
    
    Chairman Tom Davis. On our first distinguished panel, we 
have the Honorable Benjamin L. Cardin, a Congressman from the 
State of Maryland, who has legislation that could help remedy 
this problem; and we have the Honorable Steny Hoyer, 
distinguished Minority Whip, from the State of Maryland, too.
    Mr. Cardin, do you want to start?

  STATEMENTS OF HON. BENJAMIN L. CARDIN, A REPRESENTATIVE IN 
 CONGRESS FROM THE STATE OF MARYLAND; AND HON. STENY H. HOYER, 
 MINORITY WHIP, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
                            MARYLAND

              STATEMENT OF HON. BENJAMIN L. CARDIN

    Mr. Cardin. Thank you, Mr. Chairman. Let me thank you very 
much for conducting this hearing on a very important subject 
that involves the juvenile services within the District, but 
also an 800-acre-plus piece of land that is located in the 
Third Congressional District of Maryland.
    I also want to thank Eleanor Holmes Norton for her 
leadership. We have had many discussions, and they have all 
been positive, and we are going to be working together to try 
to resolve these issues. And I concur in her statement.
    I want to thank Mr. Ruppersberger, who has part of the area 
that we are talking about. The National Security Agency and 
Fort Meade are located in the Second Congressional District of 
Maryland, which Dutch Ruppersberger represents. And I am 
pleased to be here with Steny Hoyer, who has been a real leader 
on these issues in this region. The three of us represent parts 
of Anne Arundel County, along with Wayne Gilchrest. So it is in 
four congressional districts, the county itself.
    The legislation which I have introduced, H.R. 316, involves 
a piece of land, 800-plus acres, located about 30 miles south 
of here, off of the BW Parkway. It is federally owned property. 
It is adjacent to Fort Meade; it borders Fort Meade.
    If you look at the east of the property, you will see that 
it is where Fort Meade is located, as well as its major tenant, 
the National Security Agency. The property is located in the 
Third Congressional District of Maryland, and on the property 
is the Oak Hill Juvenile Detention Facility for the District of 
Columbia, that houses today a little bit in excess of 150 
children.
    The legislation deals with three needs. First, the closing, 
the relocation, and construction of a new facility for the 
District of Columbia. The current system, the current facility, 
is dilapidated, and does not meet the needs of our juvenile 
facilities.
    The children there are not being properly provided for. 
Since 1985, there have been court cases pending in regards to 
Oak Hill. Since 1986, there has been a Consent Decree that 
points out the need for community-based facilities for these 
children. There have been 60-plus court orders; millions of 
dollars of fines.
    In 2001, the District of Columbia had a blue ribbon 
committee that reported back, recommending the closure of Oak 
Hill and the relocation to community facilities within the 
District. I fully concur with that blue ribbon commission's 
recommendation.
    In July 2003, the Washington Post ran a series of articles 
on the failures at Oak Hill. So there is no question that we 
need to do something concerning the facilities. There is a 
photograph over there, Mr. Chairman, that shows one of the 
buildings that is not being occupied; shows you the condition 
of the property.
    I have been there. I know that Eleanor has been there, and 
Congressman Hoyer has been there. The property cannot be 
rehabilitated; the property needs to be knocked down. There is 
an issue of community safety. There have been children who have 
escaped from the facility. So we need a new facility.
    Second, the National Security Agency needs the protection 
of the perimeter areas. The Deputy Director, Mr. Black, has 
issued a statement for the record that you referred to, 
indicating that he wants, and the NSA would like to have, the 
exclusive use of the northern sector of the property for the 
National Security Agency. That happens to be where the juvenile 
detention facility is currently located.
    And the third area that we are trying to address by this 
legislation is to deal with the community, the needs of the 
people in the immediate vicinity. There is sensitive 
environmental property that needs to be dealt with. The Little 
Patuxent River flows through it and provides an opportunity for 
the community. And as Dutch Ruppersberger has pointed out, we 
need additional land for private development to deal with the 
contractors that work with the National Security Agency and the 
tenants at Fort Meade.
    The recent BRAC decision made yesterday indicates that 
about 5,000 more jobs, positions, will be coming to the 
National Security Agency at Fort Meade. This will generate a 
need for a lot more private contract work. We need land to 
locate the private companies that are going to be working with 
the National Security Agency to deal with the intelligence 
needs of our community.
    H.R. 316 deals with all three. I know you have a map in 
front of you, so let me just cover it quickly. First, it 
disposes the land to three major stakeholders. First, the land 
that is to the north and west of the Baltimore-Washington 
Parkway would be transferred to the Park Service. The Park 
Service currently operates the BW Parkway because of the desire 
to have a direct access between Fort Meade and the Nation's 
Capital. The land that is to the north and west is mostly 
environmentally sensitive land; needs to be kept in open space 
and wetlands. And the National Park Service would be the best 
entity to handle that.
    The property that is to the north of the Little Patuxent 
River, marked ``2'' on the map, would be turned over to the 
National Security Agency for their exclusive use. This is the 
land that they believe they need for perimeter security for 
NSA.
    The largest tract is the part that is south of the Little 
Patuxent River. That would be transferred to Anne Arundel 
County, and used for development.
    The reason why this is a ``win-win'' situation is that the 
development of the land south of the Little Patuxent River will 
allow us to have the resources to build the new facility for 
the District of Columbia. That is one of the problems we have 
had, is finding the money to do the transfer. So this bill will 
provide a structure where we will be able to get the dollars.
    From a structural point of view, we have the Secretary of 
the Army originally paying the cost, but we expect that the 
money would be paid for through the development of the land 
that is south of the Little Patuxent River.
    Mr. Chairman, I believe that this bill will allow us to 
move forward. It gives us the financing; it disposes of the 
land properly. We do need to find a location. I agree with Ms. 
Norton: we need to find a location. It may be helpful if we can 
get involved in that. I don't know.
    This legislation allows us to move forward, though. It puts 
in place the proper use of the land and a method to finance the 
new facility, which has been the major hang-up over the last 20 
years. So I think it is a positive step for this legislation to 
move forward, and will allow us to say at last we are not going 
to allow the status quo to continue to remain as it is. We 
can't do it, for the sake of the children; and it is not fair 
to the people in Anne Arundel County; and it is not fair for 
the national security needs of our area.
    One last point. Anne Arundel County is committed to putting 
in a lateral park along the river for recreational purposes for 
the community; so that we have, I think, all the stakeholders 
who are in support of how we need to move forward in regards to 
a replacement facility for Oak Hill and the distribution of 
this very important property.
    And I thank you, and I look forward to working with the 
committee.
    [The prepared statement of Hon. Benjamin L. Cardin 
follows:]

[GRAPHIC] [TIFF OMITTED] T4770.009

[GRAPHIC] [TIFF OMITTED] T4770.010

[GRAPHIC] [TIFF OMITTED] T4770.011

[GRAPHIC] [TIFF OMITTED] T4770.012

[GRAPHIC] [TIFF OMITTED] T4770.013

[GRAPHIC] [TIFF OMITTED] T4770.014

[GRAPHIC] [TIFF OMITTED] T4770.015

[GRAPHIC] [TIFF OMITTED] T4770.016

[GRAPHIC] [TIFF OMITTED] T4770.017

[GRAPHIC] [TIFF OMITTED] T4770.018

[GRAPHIC] [TIFF OMITTED] T4770.019

    Chairman Tom Davis. Mr. Cardin, thank you very much.
    Mr. Hoyer.

                STATEMENT OF HON. STENY H. HOYER

    Mr. Hoyer. Thank you very much, Mr. Chairman. Today, I am 
here to support H.R. 316, which, as has been said, transfers 
portions of the 800 acres of Federal property located in Anne 
Arundel County to the National Park Service, the Secretary of 
the Army, for the use of NSA, and to GSA, who in turn will 
convey the property to Anne Arundel County for parkland and 
recreational use.
    Additionally, this legislation requires the District of 
Columbia juvenile detention center known as Oak Hill to be 
closed, and provides--and this is critical--for construction of 
a new facility on a site yet to be determined. Obviously, 
``site to be determined'' is the difficult part of this 
equation.
    For well over 15 years, problems have plagued the various 
juvenile facilities located on this property. Originally, Mr. 
Chairman, as I am sure everybody in the room knows, they were 
designed for juveniles who, as Ms. Norton characterized them, 
were simply juveniles who had behavior problems, as opposed to 
criminal involvement.
    From dilapidated buildings and run-down facilities to 
rampant escapes and inadequate treatment programs, the property 
became nothing but a problematic neighbor and a public nuisance 
to the people in nearby communities; not to mention the 
challenge that it was causing to District of Columbia 
officials.
    Working with the District of Columbia officials, promises 
were made to address improvements in not just the 
infrastructure, but the quality of treatment received by the 
youths detained in the facilities and the security measures 
offered. Again, the security measures were inadequate, because 
the facility was originally designed for essentially what we 
would call children in need of supervision, as opposed to 
children who had been involved in possible criminal activity, 
either detained to determine their involvement, or having been 
found to be involved.
    Many of the most troublesome programs were shut down, and 
youths transferred to more adequate placements. However, when I 
represented this area--and I do not now--but when I represented 
this area, Cedar Knoll was the particular focus. And Mr. 
Chairman, I started to call it ``Cedar Sieve,'' and the reason 
for that is it simply was not designed to hold the types of 
young people that were being held at that facility.
    However, the Oak Hill facility remains. Security concerns 
continue, and the youth of the District of Columbia are still 
not receiving the treatment they need or the environment to be 
held either pre or post-finding.
    I am encouraged by the advances made by Mayor Williams and 
his administration over all the juvenile justice system. It is 
a difficult task, and I want to congratulate them for 
addressing it.
    Making Youth Rehabilitation Services a cabinet-level 
position, and placing Mr. Schiraldi in charge of revamping all 
of the juvenile services programs, shows a strong commitment, 
in my opinion, to do what is right to assure that every effort 
is made to modernize services and establish an effective 
treatment program for incarcerated young people.
    With the commitment of everyone involved to build a new, 
state-of-the-art facility, we have an opportunity, Mr. 
Chairman: an opportunity to provide appropriate housing, sound 
treatment, and the security measures needed to reassure the 
public. We must take this opportunity to work together to find 
the most suitable location for such a facility, while assuring 
that the Federal land involved is used in the most appropriate 
and cost-effective manner.
    As my colleague, Mr. Cardin, stated, this plan offers 
options to the many stakeholders involved. And I want to 
congratulate him for working closely with Ms. Norton, as I have 
in the past, to solve what is a very difficult problem. It is 
easy to demagogue about these issues. It is difficult to solve 
them. But we can do so, working together.
    Mr. Cardin's plan offers the Fort Meade community the space 
needed for the population increases brought on by BRAC, as 
referred to by Mr. Ruppersberger, who represents this area of 
our State; NSA, the property it needs to continue its important 
work and maintain security; and Anne Arundel County, space for 
park and recreation use. And most importantly, Mr. Chairman, 
the funding for a secure treatment option to serve the District 
of Columbia's youth and the District of Columbia citizens.
    Closing Oak Hill is the right thing to do, and I look 
forward to working to develop a plan, and a solution, which 
serves the needs of the District, its youth, and the community 
at large. And I thank you for this opportunity.
    I have a longer statement, which I will submit for the 
record.
    Chairman Tom Davis. Without objection, it will be entered.
    [The prepared statement of Hon. Steny H. Hoyer follows:]

    [GRAPHIC] [TIFF OMITTED] T4770.020
    
    [GRAPHIC] [TIFF OMITTED] T4770.021
    
    [GRAPHIC] [TIFF OMITTED] T4770.022
    
    [GRAPHIC] [TIFF OMITTED] T4770.023
    
    Chairman Tom Davis. Thank you both. Let me just say, this 
brings back the days of Lorton Prison; the same kinds of issues 
that we had with the city, and it took us years to work 
something out. It is constructive. I think the key is to find 
an alternative. If we can find an alternative spot, I think we 
can bring all the parties together. You are providing a way 
that we could get funding, that we could take this asset, turn 
it into something that could produce some revenue so that the 
city wouldn't be disadvantaged. But it is a question of finding 
a spot.
    And I know this committee looks forward to working with you 
on that. I know Ms. Norton would work with you. And we could 
try to make this a ``win-win.'' But the legislation is a first 
start.
    Any thoughts on that? Do you have any thoughts, in terms of 
where else you can locate kids? Unlike the Lorton situation--
and there was a youth component to that--but we moved those 
prisoners into the Federal prison system. We did put a mile 
radius, so they wouldn't be too far away. But with kids it has 
to be a little closer. And there is just no immediate sites in 
the city for this, it seems.
    Mr. Cardin. My understanding is that the size of the 
facility is modest, as far as the need of how much land is 
actually needed. I don't want to minimize the challenge. I know 
that there have been lands that have been made available to the 
District through this committee, and I am not prepared to try 
to designate any specific site. But I really do think we should 
look at the properties that could be made available.
    The city administration has told me there are some zoning 
issues with properties, and other issues. But I think we need 
to take a look at it because, obviously, all the reports have 
shown that the best location would be closest to the families 
within the District, that is an important part of the equation 
here. So I think that needs to be, by far, the first order of 
business, is to make an effort to try to find----
    Chairman Tom Davis. Let me interrupt. I think that is 
constructive. Let me interject something. The Federal 
Government has a lot of property in the area, a lot of it 
surplus. We are transferring a piece of that, or we are in the 
process of transferring a piece of that, to the city in 
cooperation with the administration. But if we can get an 
inventory of all Federal properties, working with Mr. Hoyer and 
the other affected Members, maybe we can find an appropriate 
transfer that works in this case.
    The Federal Government has some responsibility here, with 
our oversight with the District, and maybe there would be an 
appropriate transfer on that. And I think we would have to look 
at all of these.
    We are in the process of trying to get a complete data base 
of all Federal properties in Washington, and see what is 
utilized, what isn't utilized, what could be utilized, and see 
if there is a way around this. But I think you have identified 
what appears to be a major problem; and try to come up with a 
constructive solution.
    Ms. Norton. If I could just say----
    Chairman Tom Davis. Go ahead.
    Ms. Norton [continuing]. Because I don't have a question. I 
simply want to thank my colleagues for doing what they always 
do; which is working with me to try to find a solution. And 
they have handled this very difficult problem, it seems to me, 
in the way that this region does in fact operate.
    I just want to say, just for the record, that the District 
was not responsible for putting this facility in someone else's 
district. And I could not sympathize more with the Members. The 
District did not have Home Rule when this decision was made. 
And I don't think the Congress made it because it was punishing 
Maryland, either. I think it had to do with available land. And 
very frankly, the Federal Government has taken the lion's share 
of the land that is not used for residential use or is not used 
for commercial use.
    But I join the chairman in saying I still believe that Mr. 
Cardin's idea is a very fruitful idea. The major problem you 
have in these kinds of things usually is how you are going to 
get the money to do it. Now we have a question of, ``Where are 
you going to put it?'' And we obviously know we don't need all 
of that huge space out there in Laurel, MD. But, you know, 
Congress put it out there in that huge space; we didn't do it.
    There ought to be a way, as the chairman says, with all the 
Federal land all around this region, to find a smaller space 
where we could accommodate this facility, and move it out of a 
district where people have every right to say, ``Why is it in 
my district?'' So I thank you, both of you, for the way you 
have handled this matter.
    Chairman Tom Davis. Thank you. And Mr. Ruppersberger, 
before I recognize you, let me just say this isn't just about 
where it is located; this is about the kids. This is a program 
that is not working for the kids, and it has been documented 
now for over 15 years. So that remains a huge problem. And 
perhaps a locational change could add to new management and 
giving these kids a shot.
    Mr. Ruppersberger. Mr. Chairman, I want to thank you for 
agreeing to work with us. And a lot of issues in this town 
can't be resolved, unfortunately; but this is an issue that we 
all, if we put our heads together, can do the right thing. And 
I think the children will benefit, and our national security 
will also benefit.
    Also, Mr. Chairman, I know NSA submitted a statement. 
Basically, the key to this statement is that they want to make 
sure there is a security buffer zone for Fort Meade-NSA, for 
national security. And that is really most of the extent of 
their testimony.
    And Mr. Cardin, it is a good plan, and you are a smart man. 
[Laughter.]
    Chairman Tom Davis. You can take that and run with it.
    Mr. Cardin. Yes.
    Chairman Tom Davis. Do any other Members have questions?
    [No response.]
    Chairman Tom Davis. If not, thank you both.
    Mr. Cardin. Thank you, Mr. Chairman.
    Chairman Tom Davis. We will take a 3-minute recess, as we 
get ready for the next panel.
    [Recess.]
    Chairman Tom Davis. We are ready to resume our second 
panel. Without objection, Congressman Cardin will be permitted 
to sit in.
    It is a distinguished panel. We have the Honorable Lee 
Satterfield, presiding judge, District of Columbia Family 
Court; the Honorable Eugene Hamilton, the senior judge of the 
Superior Court--Judge, nice to see you again--Charles Ramsey, 
the chief of police for the Metropolitan Police Department, and 
no stranger to this committee; and Vincent Schiraldi, the 
director of the District of Columbia Youth Rehabilitation 
Services. And this is your inaugural visit here, Mr. Schiraldi. 
We appreciate your being here.
    It is our policy that all witnesses are sworn before you 
testify, so if you would, just rise and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much.
    Judge Satterfield, we will start with you. And we 
appreciate your being here today.

STATEMENTS OF LEE F. SATTERFIELD, PRESIDING JUDGE, DISTRICT OF 
COLUMBIA FAMILY COURT; EUGENE HAMILTON, SENIOR JUDGE, DISTRICT 
OF COLUMBIA SUPERIOR COURT; CHARLES H. RAMSEY, CHIEF OF POLICE, 
   DISTRICT OF COLUMBIA METROPOLITAN POLICE DEPARTMENT; AND 
    VINCENT SCHIRALDI, DIRECTOR, DISTRICT OF COLUMBIA YOUTH 
                    REHABILITATION SERVICES

                STATEMENT OF LEE F. SATTERFIELD

    Judge Satterfield. Good morning. Thank you. Chairman Davis, 
Congresswoman Norton, other members of the committee, thank you 
for the invitation to testify today about the role of the D.C. 
Superior Court's Family Court in the District's juvenile 
justice system.
    The Family Court has jurisdiction to hold youth in secure 
detention prior to trial, to release youth with conditions pre-
trial, to conduct a trial and, if the youth is found involved--
which is the equivalent of guilty in the criminal system--to 
sentence him or her.
    There are only two sentencing options available to Family 
Court judges: a judge can place the child or youth on 
probation, or commit the youth to the custody of the city.
    Under current D.C. law, Family Court judges cannot sentence 
youth to a period of incarceration in a secure facility, but 
may only commit them to the city's Department of Youth 
Rehabilitation Services. At that point, even if the youth 
violates his probation conditions repeatedly, or commits other 
crimes, even serious or violent crimes, the judge has no 
control over where the youth is placed. We submit to you that 
this distracts from the accountability that we are trying to 
instill in young people and children in this case.
    Our juvenile delinquency caseload represents about 25 
percent of the Family Court caseload. One of the Family Court's 
goals, as set forth in the transition plan required by the 
Family Court Act and submitted to Congress in April 2002, is to 
provide early intervention and opportunities for juveniles 
charged with offenses to enhance rehabilitation and promote 
public safety. Prevention, public safety, accountability, and 
rehabilitation are key goals of the Family Court. Continued 
accountability directly to the sentencing judge is a key 
element in public safety and successful rehabilitation.
    Our Family Court Social Services Division plays a vital 
role in our response to juvenile delinquency, and is 
responsible for supervising juvenile offenders who are pre-
trial, or those serving a probationary sentence and that are 
not committed to the city's care. Our division currently 
supervises about 1,900 juvenile offenders, a number that 
represents the majority of youth in the juvenile justice 
system.
    I have submitted for the record a manual that outlines how 
the Court Social Services supervises youth, and the role that 
they play in accountability and keeping the community safe.
    Also, in my written testimony, I review the juvenile 
delinquency guidelines that were established by the National 
Council of Juvenile and Family Court Judges for the purpose of 
improving court practices in juvenile cases. And I discuss 
those goals, and how we meet those goals, in my written 
testimony. In the interest of time, I will not go over them 
now.
    I would like to tell you about a new program that we have 
implemented in Family Court just last week, and it relates to 
truancy. As you know, the short-term consequence of truancy is 
often delinquency, and the long-term consequences of truancy 
are also incarceration, illiteracy, and unemployment.
    We have launched just last week in the Garnet-Patterson 
Middle School a program to divert youth out of the system, or 
away from the system. This new program is a Truancy Court 
diversion program for middle-school students, and was developed 
by the Family Court in partnership with the District of 
Columbia Public Schools; the District of Columbia School Board; 
the Deputy Mayor for Children, Youth, Families, and Elders; and 
the Child and Family Services Agency.
    Students who have more than 15 unexcused absences and who 
could be referred to Family Court for prosecution are eligible 
to participate, with their parents or guardians. This is a 
voluntary program. The goals of the program are to increase 
attendance, improve grades, and improve behavior. In addition 
to the students and parents, other participants include the 
teacher, attendance counselor, and the family advocates who are 
social workers.
    I conduct hearings at the school weekly, and the social 
workers work with the families to provide services that 
strengthen the families, to ensure that the students remain in 
school.
    I also want to talk just briefly about parental 
participation because, as you know, if you want to help 
children, you must help their parents. And sometimes, helping 
parents means holding them accountable.
    Involving parents is a key part of the Family Court's 
juvenile justice prevention and intervention response. We enter 
participation orders in just about every juvenile case, unless 
it is not in the best interests of the child. In 2005, we 
entered participation orders in 91 percent of the cases: 
requiring parents to participate in the rehabilitation process 
with their children; requiring parents to participate in 
parenting classes, substance abuse treatment, and monitor their 
children's curfew and school attendance.
    Let me just conclude by saying that our goals for the 
future are to continue to sustain our current programs; to 
launch an adolescent girls' program for girls that are on 
probation; to continue our partnership with MPD in gang 
intervention; to open drop-in centers for youth to receive 
services and be closely monitored in the community; and to 
acquire global positioning system technology, so that we can 
better monitor the movement of youths to provide for our 
juvenile probation officers.
    I thank you for this opportunity to testify, and I welcome 
any questions that you may have.
    [Note.--The District of Columbia Superior Court, Family 
Court report entitled, ``Court Social Services, a Division of 
the Family Court,'' may be found in committee files.]
    [The prepared statement of Judge Satterfield follows:]

    [GRAPHIC] [TIFF OMITTED] T4770.024
    
    [GRAPHIC] [TIFF OMITTED] T4770.025
    
    [GRAPHIC] [TIFF OMITTED] T4770.026
    
    [GRAPHIC] [TIFF OMITTED] T4770.027
    
    [GRAPHIC] [TIFF OMITTED] T4770.028
    
    [GRAPHIC] [TIFF OMITTED] T4770.029
    
    [GRAPHIC] [TIFF OMITTED] T4770.030
    
    [GRAPHIC] [TIFF OMITTED] T4770.031
    
    [GRAPHIC] [TIFF OMITTED] T4770.032
    
    [GRAPHIC] [TIFF OMITTED] T4770.033
    
    [GRAPHIC] [TIFF OMITTED] T4770.034
    
    [GRAPHIC] [TIFF OMITTED] T4770.035
    
    [GRAPHIC] [TIFF OMITTED] T4770.036
    
    Chairman Tom Davis. Thank you very much.
    Judge Hamilton, good to have you back.

                  STATEMENT OF EUGENE HAMILTON

    Judge Hamilton. Thank you. Good morning, Mr. Chairman, Ms. 
Norton, and other members of the committee. It is a pleasure to 
be here this morning to address this very timely and critical 
subject of juvenile justice in the District of Columbia.
    I am privileged to be here today as a result of having 
served as chairman of the Mayor's Blue Ribbon Commission on 
Youth Safety and Juvenile Justice Reform. This was a commission 
which was appointed by the Mayor of the District of Columbia, 
and the Mayor asked us to offer policy recommendations.
    More specifically, we were to assess delinquency prevention 
strategies and explore model programs; identify strengths and 
weaknesses in rehabilitative and supportive services and 
programs; explore the research on youth violence and substance 
abuse; examine how our current institutions were working; and 
develop strategies for serving children and youth in their 
neighborhoods and communities.
    The Mayor issued an explicit call for the commission to 
formulate a vision and a seamless network of youth service 
ideals that treat children as children. This is an approach, 
Mr. Chairman, with which I fully agreed, and I was happy to 
devote time and energy to that very important task.
    The commission completed its study, and issued a very 
comprehensive study of the juvenile delinquency system in the 
District of Columbia. The commission made a series of very, 
very specific recommendations, including time lines within 
which it was hoped that these recommendations would be 
accomplished.
    I should note, and am pleased to note at this time, that 
many of the commission's recommendations have now found their 
way into legislation of the District of Columbia, in the 
Omnibus Juvenile Justice Act of 2004, which was enacted into 
law in March of this year. This legislation, which seeks to 
codify many of the commission's recommendations, is based on 
research and study and a broad, balanced, and representative 
inquiry.
    I should note that this legislation is in some important 
respects inconsistent with the recommendations of the 
commission; in that it allows for the transfer of more children 
out of the juvenile justice system and into the adult criminal 
system. This is diametrically opposed to the recommendation of 
the Blue Ribbon Commission. The commission's position on this 
was that the rules should not be relaxed for the transfer of 
children from the juvenile system into the adult system.
    The commission also recommended that the Oak Hill facility 
be closed. Now, the recommendation of the commission was not 
just that the present Oak Hill facility be closed; but that the 
present Oak Hill facility be closed, and a new, state-of-the-
art facility be built on that particular site. The two went 
hand in hand, because you can't close a secure commitment 
facility unless and until you have provided for a replacement 
of that secure commitment facility which is closed.
    Everybody agrees that Oak Hill has outlived its usefulness. 
It is not serving the rehabilitative purposes of juveniles 
within the District of Columbia and, of course, it should be 
closed. The omnibus legislation which was enacted in March of 
this year provides that it be closed and that a new facility be 
constructed on the site.
    We must understand that the Blue Ribbon Commission 
recommended that the present facility be replaced with a new, 
state-of-the-art, secure facility at the present campus, and 
that this facility be consistent with the Missouri model.
    Now, any other site must offer all of the resources of the 
Oak Hill site: open space; fresh air; and it must be removed at 
a reasonable distance from the District of Columbia, but it 
must remain accessible by family, friends, and treatment 
providers. H.R. 316, unfortunately, does not address this 
concern.
    The District of Columbia can now accomplish the Blue Ribbon 
Commission's objective of moving away from institutionalizing 
children in a non-rehabilitative environment by providing for 
the construction of a new, state-of-the-art facility at the 
present campus, or some other location which offers all of the 
resources that the present campus offers.
    And those resources are very, very important. It is not 
just a building. It is not just a brick building. It is not 
just a residential facility. But it is a residential facility 
in an appropriate setting. And I cannot emphasize that too 
much.
    Now, Mr. Chairman, I have submitted a full statement, and I 
ask that it be attached to the record and made a part of the 
record in this matter. And of course, I am willing to answer 
any questions that any members of the committee might have. 
Thank you, Mr. Chairman.
    [The prepared statement of Judge Hamilton follows:]

    [GRAPHIC] [TIFF OMITTED] T4770.037
    
    [GRAPHIC] [TIFF OMITTED] T4770.038
    
    [GRAPHIC] [TIFF OMITTED] T4770.039
    
    [GRAPHIC] [TIFF OMITTED] T4770.040
    
    [GRAPHIC] [TIFF OMITTED] T4770.041
    
    [GRAPHIC] [TIFF OMITTED] T4770.042
    
    [GRAPHIC] [TIFF OMITTED] T4770.043
    
    [GRAPHIC] [TIFF OMITTED] T4770.044
    
    [GRAPHIC] [TIFF OMITTED] T4770.045
    
    [GRAPHIC] [TIFF OMITTED] T4770.046
    
    [GRAPHIC] [TIFF OMITTED] T4770.047
    
    [GRAPHIC] [TIFF OMITTED] T4770.048
    
    [GRAPHIC] [TIFF OMITTED] T4770.049
    
    [GRAPHIC] [TIFF OMITTED] T4770.050
    
    [GRAPHIC] [TIFF OMITTED] T4770.051
    
    [GRAPHIC] [TIFF OMITTED] T4770.052
    
    [GRAPHIC] [TIFF OMITTED] T4770.053
    
    Chairman Tom Davis. Judge, thank you very much.
    Chief Ramsey, thanks for being with us.

                 STATEMENT OF CHARLES H. RAMSEY

    Chief Ramsey. Thank you, Mr. Chairman, Congresswoman 
Norton, and other members of the committee. Thank you for the 
opportunity to present this testimony concerning the District 
of Columbia's juvenile justice system. Juvenile crime is a 
serious concern today, and it will continue to be so in the 
future, as the juvenile population is expected to increase by 
24 percent over the next two decades.
    The Metropolitan Police Department is one of many 
entities--public, private, and non-profit--that compose D.C.'s 
juvenile justice system. While the MPD has unique 
responsibilities within the system, we certainly share in the 
overarching goals of protecting our youth and protecting our 
communities through prevention, intervention, and enforcement 
strategies.
    Our agency may have primary responsibility for enforcement, 
but we do work very hard--and, I believe, quite successfully--
on a number of prevention and intervention initiatives, as 
well. Let me provide just a few examples.
    In partnership with the faith community, the Metropolitan 
Police Boys and Girls Clubs, and other community leaders, our 
department offers a range of recreational and social 
opportunities for young people; in particular, those from 
economically challenged families and communities.
    This past summer, we operated summer camps in our police 
districts, and we once again staffed Camp Brown in partnership 
with the Boys and Girls Clubs. Along with our clergy police 
community partnerships, we held ``40 Days of Increased Peace'' 
this summer, a series of family crime prevention and community 
building events. And individual police districts conducted a 
variety of programs, from athletic leagues to fashion shows. 
Our objective is to provide opportunities for young people to 
explore and experience positive, new activities in a safe 
environment.
    In the area of intervention, our department is in the 
process of revamping and expanding our innovative OPAT program, 
``Operation Prevent Auto Theft.'' Auto theft in D.C. is a 
serious crime, in and of itself. Auto theft and unauthorized 
use of a vehicle are also gateway crimes for our youth. 
Involvement in these offenses often signals more serious 
criminal activity in the future.
    OPAT takes first-time offenders and provides them with 
intensive education and intervention services, focusing on 
community impact and their own lives. To date, there have been 
95 participants in the program; with 10 being rearrested for 
auto theft, and another 12 rearrested on other charges. And 
while our goal is zero recidivism, these initial numbers are at 
least encouraging.
    Other intervention strategies include increased enforcement 
of curfew and truancy laws. So far this year, MPD officers have 
picked up more than 2,700 curfew violators, or over twice the 
total from all of 2004. In addition, officers have picked up 
more than 2,000 truants this calendar year, also an increase. 
Our goal in both areas is to get young people off the street 
during times when they are most vulnerable to crime, either as 
victims or offenders.
    This school year, the MPD also assumed management 
responsibility for security inside D.C. public schools. This 
reform is not only helping to enhance security inside the 
schools; it is also providing for additional coordination 
between our school safety and community crime-fighting efforts.
    In the area of enforcement, our department's activity 
remains high, and highly focused on priority crime types. Last 
year, MPD officers arrested close to 3,000 juveniles for a 
variety of offenses, an increase of 15 percent from 2003. This 
year, our arrest numbers are tracking at about the same level 
as 2004, slightly below last year's level.
    We are paying particular attention to the crimes of auto 
theft, UUV, and robbery. Citywide, robbery and weapons 
violations are the only serious crimes that are on the rise 
this year among juveniles. We have had an 11 percent increase 
in robbery arrests so far this year, and a 17\1/2\ percent 
increase in weapons violations arrests. These increases have 
been fueled, in part, by juvenile offenders, in terms of the 
crimes themselves. We are targeting these crimes through a 
number of enforcement initiatives, and have arrested several 
juvenile suspects in recent weeks.
    Probably the most encouraging statistical trend we have 
seen this year is a sharp decline in the number of juvenile 
homicide victims. So far this year, there have been 10 young 
people, age 17 or younger, murdered in D.C. That compares to 23 
at this time last year. And of the 10 victims this year, three 
were young children or infants who were killed by family 
members or other caregivers. Ten juvenile homicides is still 10 
too many, in my mind, but we have begun to see a reversal of 
last year's particularly violent trend.
    For our juvenile justice system to be even more effective 
in the future, there must be even greater cooperation and 
information sharing among all of the entities involved. This 
issue has come into sharp focus in recent days, with the 
homicide of 16-year-old Marcel Merritt and subsequent 
information about his criminal activity and detention history 
over the past few years.
    Currently, the Metropolitan Police Department is not 
receiving juvenile justice information that I believe would 
assist us in our mission of protecting young people and 
safeguarding communities. For example, when young offenders are 
assigned to group homes or given home detention, I feel 
strongly that our police officers have a right to know who 
these young people are, where they have been sent, what their 
juvenile history is, and any conditions on their release such 
as curfews, stay-away orders, and the like.
    Currently, our department is not receiving this 
information, because it is considered part of the social files 
on juveniles. And let me assure you that everyone in our 
department is not interested in seeing psychological 
evaluations, treatment plans, or similar information contained 
in these files. But we should have access to basic detention 
and criminal history information that is essential in helping 
us protect our neighborhoods.
    Our police officers cannot be expected to enforce a 
juvenile's conditions of release, if we don't even know what 
those conditions are. We should also be informed immediately 
when juveniles abscond from any facility in the juvenile 
justice system and when there is any change in a juvenile's 
status.
    In the interest of protecting our communities--and as in 
the case of Marcel Merritt, protecting young people, 
themselves--our police officers should have access to basic and 
limited information about juvenile offenders in our 
neighborhoods. Thank you.
    [The prepared statement of Chief Ramsey follows:]

    [GRAPHIC] [TIFF OMITTED] T4770.054
    
    [GRAPHIC] [TIFF OMITTED] T4770.055
    
    [GRAPHIC] [TIFF OMITTED] T4770.056
    
    Chairman Tom Davis. Mr. Schiraldi.

                 STATEMENT OF VINCENT SCHIRALDI

    Mr. Schiraldi. Good morning Mr. Chairman, Congresswoman 
Norton, and distinguished committee members----
    Chairman Tom Davis. We are in the middle of voting. Your 
entire statement is entered. Go ahead.
    Mr. Schiraldi. OK. I appreciate the opportunity to appear 
before you and highlight the department's efforts to enact 
badly needed reforms in the District's juvenile justice system.
    As you are aware, in 1986, the District entered into a 
Consent Decree in Jerry M. v. the District of Columbia. Over 
the past 19 years, the District has made incremental, but not 
significant, progress, in efforts to reform both its locked 
facilities and community-based programs. As such, when I took 
this position on, we were faced with enormous amounts of reform 
required, really, in every aspect of the department's 
operation; from deplorable conditions, to inadequate community-
based programming, to poor decisionmaking.
    Although faced with a sizable demand for reform, we have 
decided not to aim low in our efforts and just meet bare 
Constitutional standards. Instead, we are trying to create the 
kind of system that any of us would want if our own children 
were in trouble.
    Though our reform efforts have included many strategies, I 
want to condense my testimony and highlight two areas: secure 
custody for Oak Hill youth; and development of a continuum of 
care. These reforms come right out of the Blue Ribbon 
Commission's report, and I am honored to be able to build off 
of Judge Hamilton's work and the work of that good group.
    Anyone who is familiar with D.C.'s juvenile justice system 
has heard of the horrible conditions at Oak Hill. The facility 
is outdated, run down, and ill equipped to provide an 
environment that is both safe and rehabilitative.
    In September, the Mayor submitted plans for a replacement 
facility that should be completed in about 2\1/2\ years; which 
will provide us with the tools to eliminate the co-mingling of 
detained and committed youth, and create a more rehabilitative 
and home-like, while still secure, environment.
    When I began as director in January, the District was 
accumulating millions of dollars in fines. With the opening of 
the new Youth Services Center and a modest reduction in the 
overall committed population, I am happy to say that fines for 
exceeding population limits ceased accruing by March.
    Importantly, as Oak Hill's population declined slightly, 
serious juvenile crime declined as well; a phenomenon that is 
occurring not just here, but around the country, including in 
Maryland, in Virginia, and in California, where several members 
of this committee come from.
    For example, in the first 6 months of 2005, while the 
population of youth in locked custody in D.C. fell by 23 
percent, serious juvenile arrests declined by 26 percent, and 
the number of youths killed was cut in half, as the chief just 
mentioned.
    Congressman Waxman released a report last year that we 
built off of. And basically, what it showed was that kids were 
languishing with mental health problems in a lot of these 
training schools and correctional facilities, and that they 
needed to accelerate their placement into rehabilitative 
programming. Essentially, the reduction of population of Oak 
Hill could almost exclusively be accounted for by just simply 
moving kids more quickly into the programs that they were going 
to go to anyway.
    So right now, Oak Hill houses about 80 committed youth on 
any given day. The replacement facility that we are proposing 
will be 36 beds, configured as three home-like, 12-bed units. 
We also plan to renovate an existing 24-bed unit; for a total 
committed capacity of 60 beds, approximately 20 fewer than the 
current population. We are creating far more than 20 community-
based slots to absorb this additional population and to provide 
better services to the youths who are already in the community.
    As we plan the replacement of Oak Hill, the committee is 
interested, of course, in our position on H.R. 316. Right now, 
as was mentioned earlier, we have about 888 acres up at Oak 
Hill, up on the Laurel campus. We are only sitting on about 20, 
25 of those acres. It strikes me that there is plenty of land 
for us to accommodate the multiple interests that exist up 
there.
    We do need some place to put a secure facility, but we only 
need about 25 out of 888 acres. And we are certainly willing to 
discuss with the other significant players some mutually 
beneficial options.
    The replacement facility will accomplish little without new 
approaches to service delivery, as Judge Hamilton pointed out. 
Even before we replace Oak Hill, we intend to dramatically 
change the way we do business, creating a therapeutic milieu 
modeled on the approach used now for nearly two decades in the 
State of Missouri.
    This Missouri Model is widely acclaimed right now, because 
it puts kids into small, home-like environments. The people 
running those facilities--if you are running a 36-bed facility, 
you know the life story of every single kid in that facility. 
And that dramatically reduces the potential for bureaucratic 
foul-ups, and dramatically increases the potential for 
rehabilitation.
    Missouri, for example, has not been sued in the last 15 
years with its model, and its recidivism rate--the feeder unit 
that was talked about earlier--the recidivism rate in Missouri 
is one-fourth the recidivism rate for D.C.
    Now, the lion's share of our kids do not get locked up at 
Oak Hill--or any facility, for that matter--just like in most 
other States. The lion's share of the kids involved in D.C.'s 
juvenile justice system go to the community. Too often, 
juvenile justice systems actually jeopardize public safety by 
over-focusing on their locked custody and neglecting the 
programs monitoring most of their youth.
    In order to tackle detention reforms this summer, we joined 
with our partners in the courts--Judge Satterfield co-chairs 
this committee--and the police--Inspector Overton is on this 
committee--defense, probation, and the community, prosecutors, 
to form the Juvenile Detention Alternatives Initiative.
    This initiative is an initiative that has been experimented 
with around the country, including in Maryland, Virginia, and 
California. And working collaboratively with key 
decisionmakers, JDAI has been able to reduce the unnecessary 
use of detention in those jurisdictions; lower costs; increase 
the use of alternatives; and most importantly, reduce crime, 
rearrests, and failures to appear. In Chicago, for example, the 
average daily population in detention declined by 37 percent, 
while failures to appear and juvenile prosecutions were both 
cut by more than half.
    On the committed side, we believe we will be able to best 
address public safety when we, one, humanely confine those 
youth who need to be locked up and, two, create service plans 
that fit the strengths and needs of our young people; rather 
than fitting them into our bureaucratically predetermined 
slots.
    To move in this new direction, we are creating several 
promising programs which have been researched by OJJDP and 
found proven to reduce juvenile delinquency. The purpose of our 
continuum is to guarantee that, once a child's needs and 
strengths have been assessed, that child will have access to 
the proper complement of services necessary to put him on the 
road to success.
    So far, 89 percent and 96 percent of the youth who have 
gone through our multi-systemic therapy program and our evening 
reporting center, respectively, have not been rearrested.
    This Sunday, the Washington Post featured an article on a 
youth who was violently murdered, who, himself, was suspected 
of committing several violent murders. The Post reported that 
he had been in our care, and was in abscondence status when he 
was murdered. This youth's murder, and the tragic crimes he is 
alleged to have committed, only highlight that reform does not 
happen overnight; there is no magic bullet or pill one can take 
to fix what has been broken for two decades.
    As you are aware, and as I discussed with your staff prior 
to this hearing, confidentiality restrictions preclude me from 
discussing the specifics of his case. However, the article 
points to areas where our department needs reform.
    In fact, prior to this tragic case, DYRS had initiated a 
number of steps to directly address deficiencies in the areas 
of properly and legally revoking youths' after care when they 
were failing on community release; of pursuing absconders and 
getting them back under our supervision; of adequately planning 
for youths' return to the community; and as mentioned earlier, 
creating the kind of support and supervision in the community 
that will both closely monitor and rehabilitate youth in our 
care.
    The promise for reform in D.C., and the stakes for that 
reform, are both incredibly high. The time is ripe for us to 
bring together best practices from around the country, work 
with local stakeholders to gain their acceptance, and carefully 
but forcefully implement those practices for the betterment of 
both public safety and the welfare of our young people.
    That is the job I have been tasked with, and I intend to 
fulfill it with both integrity and a sense of urgency that I 
believe it will take to finally fulfill the promise of reform 
that so many have wanted for so long. Thank you.
    [The prepared statement of Mr. Schiraldi follows:]

    [GRAPHIC] [TIFF OMITTED] T4770.057
    
    [GRAPHIC] [TIFF OMITTED] T4770.058
    
    [GRAPHIC] [TIFF OMITTED] T4770.059
    
    [GRAPHIC] [TIFF OMITTED] T4770.060
    
    [GRAPHIC] [TIFF OMITTED] T4770.061
    
    [GRAPHIC] [TIFF OMITTED] T4770.062
    
    [GRAPHIC] [TIFF OMITTED] T4770.063
    
    [GRAPHIC] [TIFF OMITTED] T4770.064
    
    [GRAPHIC] [TIFF OMITTED] T4770.065
    
    Chairman Tom Davis. Well, thank you very much. We only have 
5 minutes. Mr. Cardin, do you have any questions you would like 
to try to get in a couple of minutes, or will you come back?
    Mr. Cardin. No, I would just take a couple of seconds.
    Chairman Tom Davis. Sure.
    Mr. Cardin. Just to say, in regards to the location, it 
seems to me you are taking--I agree with everything that has 
been said here. You are taking a pragmatic approach on a 
location where, if you really want a residential facility, it 
would be better if it were in a residential type of area, 
rather than across from Fort Meade itself. So I think there is 
room here that we could work together, and I hope we will be 
able to do that. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you. Let me just say, we have two 
votes. And what I think I will do is, instead of recessing and 
coming back, and holding you here, I have a couple of questions 
I want to ask, and Ms. Norton is going to ask them for me for 
the record.
    And then I will allow her to sit in the chairman's seat and 
preside. However, she has promised me she won't pass any bills, 
here. [Laughter.]
    But she will preside and ask questions. I am just going to 
ask this. The median time between a juvenile trial and 
sentencing is 43 days, as I understand it, Judge Satterfield. 
What has to be done during that time? Is that amount of time 
typical among jurisdictions? How often are delays beyond the 
15-day sentencing required? And do they get credit for that 
time?
    Judge Satterfield. In our system, they don't get credit for 
any time, because we don't control, as I say, once they are 
sentenced or committed to the city, how long they stay in jail 
if they are incarcerated. We do control how long they may stay 
supervised by the city. We can restrictively commit them to 21 
years.
    In terms of the time period, there are a lot of factors 
that have gone into delays in the time period. A lot of 
information is being collected about the youth: evaluations, 
psychological evaluations, psychiatric evaluations. Sometimes 
they take a long time. Often, the youth's lawyer may request a 
continuance to gather more information, as well.
    We are starting to collect the reasons why there are 
delays. I mean, I can tell you anecdotally why we think there 
are delays; but we are starting to actually collect--
electronically, we are going to collect the reasons why, so 
that we can report more accurately as to why there are some 
delays in the going to sentencing in these cases.
    Chairman Tom Davis. Thank you. I am going to turn it over 
to Ms. Norton. She has some questions from me. It is all on the 
record, and we will read it. But I think, rather than keep you 
here while we go back, this works for everybody, to keep the 
record complete.
    Again, I just want to thank everybody for coming here 
today. Mr. Schiraldi, thanks for being here. It is your first 
time, but we will probably see you again.
    Mr. Schiraldi. Thank you, Mr. Chairman.
    Chairman Tom Davis. Go ahead, Eleanor.
    Ms. Norton. Thank you, Mr. Chairman.
    Chairman Tom Davis. Do you want to sit in the big chair?
    Ms. Norton. Why not?
    [Pause.]
    Ms. Norton [presiding]. In a Congress which is storied 
about being divided, it says something about the trust between 
these two Members that he says, ``Eleanor, sit in my chair.'' 
He doesn't think I will seize power.
    The chairman had one question that he wanted to ask. Let me 
ask his first. It is for Judge Hamilton. It may be for Judge 
Satterfield, too. You make the point that Superior Court has 
not been given the authority to enter orders for the 
appropriate placement and treatment of committed youths. Why do 
you believe that the District has not given this authority to 
the court? What is the practice in other States? If the court 
had this authority, what impact would it have on the court's 
resources?
    Judge Hamilton. Well, I think it is really sort of a 
historical territorial situation, so far as the District is 
concerned. It is rather jealous of its ability to dictate the 
placement and treatment for children after they have been 
committed by the court to the District of Columbia.
    But I think it is a real impediment in securing the 
rehabilitation of children, because without the ability of the 
court to order placement and treatment, there is no 
accountability in the Department of Youth Rehabilitation 
Services, or in the old YSA. And I think it is a real 
impediment in obtaining real, actual rehabilitation.
    Ms. Norton. So what is done in other States? I mean, is 
this typical, or is this a unique District practice?
    Judge Hamilton. Well, in most other States, the courts do 
have varying degrees of authority to order treatment and 
placement. And it varies from State to State, as to the amount 
of authority that the courts have in that regard. There is no 
uniform pattern in that regard.
    But here in the District of Columbia, as a result of this 
legislation which was passed in March of this year, it makes it 
absolutely clear that the court can enter no order with respect 
to treatment or placement. And I think that is regrettable.
    Ms. Norton. Well, Mr. Schiraldi might want to comment on 
the reason for this.
    Mr. Schiraldi. Sure.
    Ms. Norton. I am sure there is some rational reason for it.
    Mr. Schiraldi. Much of this happened before my arrival. I 
actually thought that, prior to the legislation, there was an 
appeals court case called ``In Re: P.S.''--but somebody who is 
a lawyer can check me on that one--that essentially stripped 
the courts of their ability to direct placements, and gave that 
to the executive branch. It was a separation-of-powers issue, I 
think, which predated me.
    The States are all over the board on this. And I don't 
think that the research would bear out anything. You have 
departments that do this well and poorly; you have judges that 
do this well and poorly. I think the thought behind the P.S. 
decision was that the judges sentence; the executive branch 
executes.
    In Juvenile Court, the execution of a sentence can range 
from maintaining the kid in locked custody, to putting him in 
residential treatment. I can live with it either way. Whatever 
laws you guys give me, I am going to try to do the best I can.
    Ms. Norton. I don't know if Judge Satterfield has any view 
on that.
    Judge Satterfield. Yes, I do. The City Council in 1993 
passed a law that stripped the court of that authority. And it 
was not enforced until a Court of Appeals decision came out in, 
I think it was, 2000 or 2001, in the In Re: P.S., that they are 
talking about.
    Our view as judges is that if I get the information about 
the child, I may try the case; I may hear from the victims; I 
may see the parent of this child going through the system under 
our ``one judge, one family'' process. And I get a lot of 
information.
    If I place the child on probation, that child knows that, 
if I revoke probation, there is very little I can do. I can 
commit to the city, and then it is a decision made by the city, 
whether they release the child right away or not. So there is 
no accountability there for those kinds of reasons. I can try a 
murder case, a child who killed someone in the community, and I 
will have no control over, as a judge, where that child goes, 
once the sentencing occurs.
    This is not any knock on the current administration or what 
they do, but the point is, what we are subject to is the city, 
only, deciding, ``This child should go here; should go there.'' 
You may get an administration that wants to release every 
child; you may get an administration that wants to hold every 
child in jail. The city is subject, as you know, to lawsuits 
and caps and those kinds of concerns. The judges don't have 
those concerns, because we have to look at the facts and so 
forth. And this is not impugning anybody in the city. It is 
just a fact, a reality. That is the way it exists now.
    Ms. Norton. What I take from this is, there is no 
established ``best practice.'' And it is something that 
intrigues me, if in fact people are all over the map on it. I 
can think of reasons why you would want to give flexibility to 
the executive, but I can also think of reasons why the 
accountability question would be important. I can think of 
reasons why you wouldn't want to subject children to the 
differences among judges, based on their view of punishment.
    So I just don't know. And I guess that is why we have a 
Home Rule government. So I am going to have to ask that, as you 
look, Mr. Schiraldi, at the District's juvenile justice system, 
that you remember it is a system, and that this question has 
been raised here, and it is an important one that I think needs 
to be understood.
    Let me ask just a few questions. I am interested in this 
whole continuum of care; except, as far as I am concerned, the 
continuum of care begins way before a child is brought to 
court. And I hope that ``continuum of care'' does not become 
one of these slogans like we have up here. That is what it is; 
it is a slogan, because it is so hard to make it happen.
    I know that Judge Hamilton, who has worked with me on my 
Commission on Black Men and Boys--he is on the advisory 
commission--knows that I believe that the problem is very deep. 
And therefore, I am interested in continuum of care, and to see 
what that means.
    For example, I am looking at Mr. Schiraldi's testimony, at 
page 7. And he talks about some of what they are doing under 
this continuum notion, beginning to do: 16 multi-systemic 
therapy slots, where a good percentage, 89 percent, of the 
youth have gone through the program since its inception. Then 
he talks about an evening reporting center which is operated in 
the Latin American Youth Center, with 30 slots.
    This is my question. I know what kids we are talking about. 
It is one thing to talk about kids who go through a program. It 
is another thing to posit the circumstances of many of these 
kids: going back in the same community that produced the 
problem in the first place; single parent, or no parent; and 
certainly no father often, if it is an African-American child 
born in this country today. That is to say, 70 percent are born 
to never-married women.
    These are things, straight-out, that any system that deals 
with our children has to face. That is one of the reasons we 
are working with the Black Men and Boys Commission.
    So my assumption is, if I were operating one of these 
centers, I would not assume parents. And if I assumed a parent, 
I would understand that I am dealing often with a single 
parent, herself often poor and disadvantaged, who lives in a 
community where it is very hard to protect your children from 
the criminal element that swims around them. So my assumption 
would essentially be no parent; even though there might well be 
some parents there.
    And therefore, my question is, with respect to these kinds 
of continuum notions, is there anything approaching--I hate to 
use this word, but I am so naive as to how the system works--
approaching the kind of system we use for people who have been 
in jail and get out, a probationary system where, essentially, 
the person is pretty much supervised for a certain amount of 
time?
    Or do we have any data that shows that children who report 
to an evening reporting center in fact do better than those who 
do not? And if so, do we know what it is that happens there 
that causes this?
    The 89 percent of the youth who have gone through this 
Department of Mental Health program, does something happen 
there that you can point to that shows that, if you go through 
that, given the circumstances I posit, you will reduce criminal 
activity and juvenile delinquency?
    I am trying to figure out what ``continuum of care'' means, 
as you are beginning to implement it, and its effects, or its 
early effects.
    Mr. Schiraldi. Do you want me to take the first shot at 
that? So far, what I have seen is that the families seem to be 
falling into sort of three bundles. There are some families in 
which they are very actively involved in their kids. They are 
coming up to the facility. They want to help; they want to know 
what they can do.
    There are some families that are just not in the picture at 
all, and there is no possible way we could consider, at least 
now, sending the kid back there. There are a lot of drugs in 
the home; there is criminal behavior.
    And then there is a whole bunch of people in the middle for 
whom I think the Department has consistently done a very poor 
job of, A, reaching out to them to get their opinion about what 
should happen and, B, supporting them when they are out there.
    So some of those folks we believe can be brought in; sat 
down at a table with their kid and all the professionals with 
all the letters and numbers after their names; and create a 
program for that kid that meets the family's needs, the young 
person's needs, and the need for society to be protected.
    When Child and Family Services did that, they were able to 
bring a large percentage of mothers; families; and even 70 
percent now of the family team meetings they hold has either 
the kid's father, or a member of the father's family, showing 
up at these family team meetings to do case planning.
    When you do that, then you have more buy-in into what this 
plan is going to be. Because after all, the kid is going to 
live with their family for the rest of their lives.
    Now, multi-systemic therapy is a good example of a program 
that then tracks the kids closely. I mean, not once a week we 
are going to see this kid; not even once a day; multiple 
contacts a day with the kid and their family, to make sure 
things are going OK at home, to make sure----
    Ms. Norton. So there is somebody who is in touch----
    Mr. Schiraldi. Multiple times, with a pager, 24----
    Ms. Norton. Are these children who have already committed a 
crime?
    Mr. Schiraldi. Yes, we only get kids--well, there are two 
parts of what we do. But the parts that the Judges were just 
talking about are when we get kids committed to us. That means 
that not only have they committed a crime, but they have been 
essentially tried and convicted and sentenced to us.
    Ms. Norton. I would just like to suggest that some kind of 
control study be done. If this works, it will be very important 
to know. And nobody will believe anything we say, unless we 
show in the only way you can show something; which is, ``These 
are kids who didn't come, or who weren't involved, and these 
are kids--'' I am just very interested in the contact 
approach--the contact approach. If we put people on probation 
who have committed crimes, adults, and we say we have to keep 
contact with them, I don't know why we wouldn't say the same 
for the children.
    I also want to say that, with respect to the parents--and I 
don't have any doubt that there will be parents, two-family 
parents, extended families, that will say, ``Oh, my God, thank 
you, somebody is going to help me with this kid.'' But you know 
what? If you are talking about certain communities in D.C., 
that family is almost powerless to ward off the influences in 
that community.
    I have constituents who say, ``This is a terrible thing to 
do to my child, but you know what? The child can't go out.'' 
This child has to come home from school; essentially, is locked 
in. Of course, this child is an outcast when he goes out. But 
this mother would rather have that than have the kid out on the 
street, just in the front.
    So this is very difficult, what you are trying to do, 
because you cannot change the environment in which this child 
is going to live. But I am very interested in it, because if it 
works, that is the kind of thing that we ought to be able to 
show works, get money for.
    Increasing, for example, the drug court: when it was shown 
that people came into drug court with one offense, and then 
that tended to mitigate further offenses, now it is very 
popular.
    Judge Satterfield, I have to assume that must be how 
juveniles are handled in the D.C. courts. Is that the case? And 
does it work? Does it work when you give a child over to a 
priest or to his grandmother, does it have an effect of 
reducing moving the child on to other parts of the criminal 
justice system?
    Judge Satterfield. Let me assure you that when we place 
children on probation, that they are supervised by a probation 
officer, who routinely meets with the family, goes out and 
checks on the curfews and so forth. And that is why we know 
very quickly if they are violating certain conditions. And if 
we know that they are out violating curfew conditions and other 
conditions, they may be out in the street doing other things 
that they are not supposed to be doing. And so we assure that.
    Ms. Norton. And then you report that to the District, 
because you can't do anything?
    Judge Satterfield. No, the probation officers who work for 
the court report it to the judge, or the Attorney General's 
office, who will file papers in order for the judge to get 
involved again to determine whether or not probation should be 
revoked or other conditions need to be placed. So we have that 
ongoing.
    And as I said before, we always try to involve a parent. 
Every one of these kids needs a grownup. It doesn't have to be 
the father or the mother. It has to be some type of grownup, 
some type of guardian. We have to involve that. Many of our 
children are children of men who have gone to jail, so they 
need to be mentored while these men are in jail.
    Ms. Norton. So who does that?
    Judge Satterfield. Well, I know that CSSC is starting to 
work on a program, that they are going to be mentoring some of 
the children, kids who go to jail. And our Court Social 
Services, we are going to have them involved in that, because 
we ought to see some of these kids.
    Ms. Norton. So there is not a systematic program yet; for 
example, seeing that a male child has a male somebody there?
    Judge Satterfield. We can provide mentors now, but we are 
looking for a stronger mentoring type program that can hit 
every kid.
    Ms. Norton. So who is doing that? Mr. Schiraldi, is that 
your job? I mean, whose job is it?
    Judge Satterfield. I think it is all of our jobs. I think 
it is our Court Social Services for Children that are on 
probation----
    Ms. Norton. Yes, but who is doing it? If it is everybody's 
job, it is not going to get done. Many of these are young male 
children, and the only male role models they have are thugs. 
Now, somebody has to be responsible for saying, hard as it is--
they don't have to live in the District; I don't care where 
they live; I don't care what their color is--but there is going 
to be a male role model for every child like this. Whose job is 
it to see to that?
    Mr. Schiraldi. Both of us. And both of us are doing it, I 
think, right now. We just used a Federal grant from OJJDP to 
issue an RFP for $1 million worth of mentoring programs. The 
Peaceoholics who criticized us in the Post on Sunday have 
applied for that. And even though they said some tough stuff 
about us, I think they are probably one of the groups to get 
it, because they were right.
    Ms. Norton. This is something we are very interested in, in 
having your point of view. If you got a million-dollar grant to 
go and get mentors, and you want to put them with these 
troubled kids, then we would like to know what has been--or 
what is your success in finding them. Because that, it seems to 
me, is very critical.
    Let me ask about absconding, because an important part of 
your testimony, Mr. Schiraldi, is that there is a 58 percent 
reduction in absconding. And I think that would be the main 
problem that the people in the community out in Laurel would be 
concerned about.
    Why is there a reduction? What is the cause and effect? Why 
is there a reduction of that kind over a 2-year period?
    Mr. Schiraldi. Well, there are a couple of things I want to 
clear up. One is that escapes, there haven't been any escapes. 
I mean, 2002 was the last time we had an escape----
    Ms. Norton. Well, excuse me. I thought absconding was 
escapes were----
    Mr. Schiraldi. No, that is why I just wanted to clear that 
up. So the people in Laurel should feel good about the fact 
that there hasn't been an escape in several years.
    Ms. Norton. So there have been no escapes since when?
    Mr. Schiraldi. 2002.
    Ms. Norton. This is very important.
    Mr. Schiraldi. Yes.
    Ms. Norton. So there has not been a single escape from Oak 
Hill sine 2002?
    Mr. Schiraldi. Correct.
    Ms. Norton. OK. What is ``absconding?''
    Mr. Schiraldi. ``Absconding'' means running away from a 
group home, or running away from home when you are supposed to 
be there; you know, not being where you are supposed to be.
    Ms. Norton. So that would be in the District of Columbia, 
or maybe in a foster home?
    Mr. Schiraldi. Well, you know, kids sometimes get placed 
into residential treatment centers that are in other States 
but, by and large that is, you know, the people running away 
from our programs.
    Us, the Police Department, and Court Social Services, which 
is the probation department for the courts, have all set up 
absconders units several years ago. And I think a large part of 
why it went down is because those absconders units are doing 
their job.
    Ms. Norton. So you have the escapes? This is in your 
testimony?
    Mr. Schiraldi. Yes. My original testimony? Oh, the escapes? 
No.
    Ms. Norton. Why? For goodness sakes, that is important to 
put in the record. Because I think if there had never been any 
escapes from Oak Hill, I don't think you would have heard the 
kinds of concerns you hear today. And of course, what you are 
saying about the kinds of facility you are going to build is 
important to hear.
    Could I ask about court-ordered limit? You have a court-
ordered limit?
    Mr. Schiraldi. Correct. It is 188.
    Ms. Norton. And what do you do if you reach the court-
ordered limit?
    Mr. Schiraldi. Pay fines. I mean, if we exceed the court-
ordered limit, we pay fines. And we were paying them up until 
March. Or I shouldn't say we were paying them; we were accruing 
them up until March.
    Ms. Norton. Because there is just no place to put a child 
who commits a serious crime, except Oak Hill facility?
    Mr. Schiraldi. I think there are a lot of issues. I mean, I 
think Judge Satterfield talked a little earlier about case 
processing times. Case processing times aren't only an issue 
for the court; they are an issue for us.
    A lot of kids' cases were just sort of sitting around. 
There wasn't either enough staff to get them placed, as we said 
earlier, or the staff weren't moving quickly enough. I don't 
know which, and I don't really even care at this point. Because 
what we have done is we have fixed it. And we have said, 
``Look, if it takes 180 days to get a kid into a residential 
treatment center, none of that time counts. When that kid shows 
up at that residential treatment center, he or she is still 
spending the same amount of time, whether they got there the 
next day or 180 days later. Hurry up! Get them in there in 90 
days. It doesn't change anything. It is all just dead time that 
the kid is waiting.''
    So just by getting people to do their jobs more quickly and 
more efficiently, we have been able to reduce the population. 
That is what they found in the JDAI sites in lots of different 
places, as well.
    Ms. Norton. So there were places for these children to go--
--
    Mr. Schiraldi. Yes.
    Ms. Norton [continuing]. But there was bureaucracy?
    Mr. Schiraldi. Yes, it was just paperwork, it was sitting 
around----
    Ms. Norton. So now how long does it take?
    Mr. Schiraldi. Well, I don't know. We have substantially 
reduced the length of stay awaiting placement. I don't know the 
exact numbers, but I can get them to you, Congresswoman.
    Ms. Norton. Let me ask you about something we have hardly 
heard any testimony about. You know, I think if the facilities, 
however inadequate, provided something in there that the child 
could take away, there would be less concern about the 
facilities and their deterioration.
    So I have to ask you about what kind of education--there is 
nothing that keeps us from educating a child in this facility 
at least to the level we educate them in the D.C. public 
schools. So I have to ask you, what education services or job 
readiness services are provided? And what has been the success 
or failure of these services?
    Mr. Schiraldi. D.C. Public Schools run the schools at both 
Oak Hill and the Youth Services Center. And the University of 
the District of Columbia is contracted to do a variety of 
vocational services, from computers, to car repair, 
woodworking, a bunch of things like that.
    We intend to bid out the educational services as an RFP 
that would allow the schools to compete, but also allow a 
variety of, I think, very innovative charter schools like--
well, I don't want to name them, because then I don't want to 
prejudge the bid. But you know, there are some pretty 
interesting folks out there who I think would do some exciting 
work with the kids.
    One of our biggest problems isn't just the education that 
goes on inside, but it is the sort of transfer in and out. 
These kids, by the time they get to us, the schools are so fed 
up with them--because, look, they are not just little darlings 
that need a hug, right? They have problems, and they have been 
a pain in the neck in school for a very long time.
    Ms. Norton. So what is the average time they spend at Oak 
Hill?
    Mr. Schiraldi. The kids are spending somewhere between 9 
and 18 months, the ones that are staying there as committed. So 
the schools are pretty fed up with them. They don't really want 
them back real quick.
    Ms. Norton. So you would almost have to tutor kids who are 
only there for that amount of time, because they must have very 
different levels.
    Mr. Schiraldi. Yes, I tell you, interestingly enough, the 
kids pick up often a grade or two, just because we have them 
physically in class, and they hadn't been physically in class 
before. So sometimes, just by virtue of being there, they are 
picking up some grade levels.
    But coming back out is often a difficult transition. And I 
think that if we had a charter school that could do a good job 
educating them in, and then help reacclimate them on the way 
out, so they don't get sort of stuck back in a school where 
they had already failed, I think we would see a lot fewer of 
them run away, and a lot fewer of them fail.
    Ms. Norton. Judge Hamilton.
    Judge Hamilton. Well, I would like to add to that, though, 
that one of the good things--if not the only good thing--at Oak 
Hill is the school. The school does a good job. And I would 
hate to see that change as a result of some outsourcing to some 
other facility. Everybody agrees that the educational system 
provided by DCPS at Oak Hill is doing an excellent job.
    Ms. Norton. Boy! Thank you for putting that in the record.
    Judge Satterfield. Can I add something to that, though, 
Congresswoman Norton? It is just not about case processing that 
slows a child moving through the process. I mean, there has to 
be some service capacity in the place where the child is to go.
    And there are some children that have to receive services 
while in a secure facility, for safety reasons. And so you 
don't just need a school that works well, which it does, but 
you need other programs, like drug treatment, and whether it is 
sex offenders and so forth. Because the children will be 
released--as they should--and some have to have this done not 
in the community, but in a secure facility.
    Ms. Norton. Mr. Schiraldi, can you assure this committee 
that the children who are being detained are being held 
separately from children who have been committed at Oak Hill?
    Mr. Schiraldi. They are not being held separately at 
present. At present, we have a mixed facility, in which there 
are detained and committed kids in the same place. I wish I 
could assure----
    Ms. Norton. I know they are in the same building, but that 
is not my question.
    Mr. Schiraldi. OK.
    Ms. Norton. My question is if they are in the same 
building, but very different statuses. Are they just all lumped 
together so that one group can, if you forgive me, contaminate 
the other?
    Mr. Schiraldi. I wish I could assure you that the kids who 
are on detained and committed status never have contact with 
each other out there. I wish I could tell you that. But they go 
to the same school, they play on the same football field----
    Ms. Norton. And that has to be? I mean, the number of 
detained children and the number of committed children--I 
forget the numbers. What are they?
    Mr. Schiraldi. We have about 80 of each at Oak Hill right 
now, and an additional 60----
    Ms. Norton. So you couldn't educate them, for example, 
separately?
    Mr. Schiraldi. It is a little difficult because, remember, 
you have one school building. So to do it, we would have to 
essentially cut the school day in half. And we don't want to do 
that. We want them both in, all day. So very often, they are 
both in the same school.
    We have one football team. Kids play on it who are on 
detained status; kids play on it who are on committed status. 
You know, there is just one lunchroom. So we do shifts.
    There are two units that house kids who are only detained, 
and two units house kids who are only committed. And one unit 
houses both, because some of those kids are in protective 
custody, or they have illnesses, and we don't have two 
protective custody units.
    So all I am saying is, I don't want to lie to you. We keep 
them apart as much as we can. But sometimes, because there are 
so few of them up there, they are mingled.
    Ms. Norton. Judge Hamilton, you and Judge Satterfield know 
more about this than I do. But, see, my concern is with some 
kid who is there being detained, and may not be on his way to a 
life of crime; and some older kid, who is the only person to 
imitate, takes you right there. So I am not suggesting I have 
the answer to it. I am very concerned about it.
    Judge Satterfield. Well, they should be separated. And that 
is what the purpose of the Youth Services Center is for. It is 
an 80-bed facility.
    Ms. Norton. Yes, and we have 80 out there. And still, we 
have 80 at Oak Hill.
    Mr. Schiraldi. But we have another 65 at the Youth Services 
Center. So we have about 140 or so detained kids.
    Ms. Norton. Yes, well, I mentioned that in my opening 
statement, that D.C. has really moved--it seems to me, 
appropriately--with those. But that looks like about half of 
the kids. I can't imagine that there wouldn't be someplace else 
in the District.
    What kinds of crimes are the detained children accused of?
    Judge Satterfield. Well, it can be anywhere from drug 
possession, if they have repeat offenders, or there is no one 
in the home to supervise them, to murder. I mean, so it could 
be the continuum of charges.
    Ms. Norton. So are at least the most serious ones out at 
Oak Hill? I mean, do you divide up the ones who are detained in 
the District? How do you do that? How do you decide which ones 
ought to be sent to Oak Hill who are detainees, and which ones 
ought to be sent to our state-of-the-art facility right here on 
Mount Olivet?
    Mr. Schiraldi. Generally, it is more about how long they 
are staying. The facility on Mount Olivet Road is a good 
facility. It is a nice place, in terms that it is new, it is 
not deteriorated. But there is no outside recreation area. And 
if the kids are there longer than a certain period of time, 
they just start to go nuts, because there is no place for them 
to be. So after a certain period of time, we like to get them 
out to Oak Hill, so at least they have someplace to run around 
every once in a while.
    Ms. Norton. I see your dilemma. And, you know, I am not 
trying to micro-manage this. But you know, we go from one 
dilemma to another. It is terrible. And the only way, of 
course, is what you all are trying to do; which is to keep kids 
from getting in there in the first place.
    I do want to ask Chief Ramsey a question. This is another 
point of clarification. Because Chief Ramsey says in his 
testimony, at page 2, that because of the way the juvenile 
justice system is structured--for very good reasons, for the 
most part--his officers do not have access to some information 
that might be considered critical.
    Now, he says he is not interested in all their social 
files. And he names some things that you might not want to have 
an officer have access to; I mean, what their juvenile history 
is. But then, he names others, other things such as curfews, 
stay-away orders and the like, which apparently his officers 
also don't have access to.
    So I guess my question is, what is the effect of not having 
this information? Would any harm be done if at least some of 
this information were available to officers? If a child was 
violating curfew, might that not be the place to stop them, 
when there is an officer who knows that; rather than wait until 
the court, Judge Satterfield, has to get him, or somebody else 
may in fact detain him for something more serious? So would you 
describe whether anybody has looked at that matter?
    Judge Satterfield. Could I just clarify the record in terms 
of information sharing? Because the City Council took another 
look at confidentiality just this past year when they enacted 
the Juvenile Justice Act. And so they looked at those things.
    Some of the things that Chief Ramsey is looking for--like 
detention status and, if we are holding them, where they are 
being held--that is not part of the social files. In the social 
file we put in the psychological information, and so forth. Any 
restrictions on him getting this is, obviously, by law. They 
looked at it.
    In terms of release conditions, in terms of stay-away 
orders, in the new bill that was passed recently, they 
permitted the Attorney General's Office to share that 
information with the victims, or the alleged complainants in 
the case. There are provisions in the law that allow for law 
enforcement personnel to receive information when necessary to 
the discharging of their duties.
    Some information is provided only through an application. I 
review every application that comes in, and I don't get 
applications from law enforcement.
    In May 2004, Chief Judge King issued an administrative 
order indicating that the OAG, the Attorney General's Office, 
the Department of Youth Rehabilitation Services, the U.S. 
Attorney's Office, and the police department, can share 
information when there is a custody order outstanding about a 
youth.
    Now, I know he wants other information: where they are 
going, how they are moving. That information, some of that is 
held confidential by the statute, unless there is a custody 
order outstanding.
    In the case that they are referring to, the Merritt case, 
there were custody orders outstanding. And that administrative 
order allows for the free flowing of information in order to 
execute that custody order.
    Ms. Norton. What is a custody order?
    Judge Satterfield. I am sorry. It is a bench warrant. It is 
a warrant to arrest a juvenile.
    Ms. Norton. Oh, yes, well, now that the kid has committed--
or is accused of committing--a crime, we can share some 
information?
    Judge Satterfield. No, when he runs away, absconds from 
home or whatever, the people come to the court, the agencies 
come to the court and ask for a custody order, so that law 
enforcement can know that he is out on the run. They stop on a 
traffic stop or something like that; this order is in the 
system. They can look it up, and realize that, and take him 
back.
    Ms. Norton. OK. That is not automatic, though?
    Judge Satterfield. No, they have to petition the court for 
custody orders. And they often do it, and we issue them within 
a day that they make the petition.
    Ms. Norton. Mr. Schiraldi, obviously, somebody has to go to 
another bureaucratic step. Here is a kid absconding; we want to 
get hold of him. But somebody has to do the next bureaucratic 
step in order for the cops, who might help you get him, to even 
know he is absconding?
    Mr. Schiraldi. I mean, I think the request for a warrant, 
if you will, is more than just a bureaucratic step. I mean, the 
judges do usually give them out, pretty quick.
    I think, first of all, the administration needs to have an 
in-house conversation about this. The Mayor is going to be, I 
think, looking at this issue. And we have all got to get 
together in a room and talk about it. The legislation that 
changed that the Judge was just talking about really only went 
into effect in the spring. I don't think we know what we can do 
even under it so far.
    And you know, I don't think this issue came into play very 
deeply in the case that ran in the Post on Sunday, as the Judge 
just pointed out.
    But you know, there are a lot of people out there--Senator 
Simpson; you know, Judge Walden; Senator Ben Nighthorse 
Campbell; Bob Beaman, Olympic gold medalist--plenty of people, 
if we knew about their violent felony convictions--which all of 
them had when they were kids--they might not have become 
senators and Olympic gold medalists.
    Ms. Norton. Well, you know, just a moment. Nobody is--and 
you know it--nobody here is saying that one ought to publicize; 
nor was the Chief saying that. He was talking about something 
that I would ask you to look into. And I can understand that 
when a child absconds there is a warrant.
    But since you are doing a whole new juvenile justice 
system, and since some more automatic way of knowing about a 
child being on the loose could be helpful in keeping this child 
from going further in the system, it might be worth looking 
into, to see if there is a more flexible way to make that very 
limited--some very limited information; we would all have to 
get together to decide what that information is.
    I would ask that be done, and that you report to this 
committee--let's give you 6 months, because you are talking 
about a new law--how you have facilitated that.
    The chief wanted to say something.
    Chief Ramsey. Well, I just wanted to talk about the 
information-sharing issue. Custody orders, we get the 
information on that. The issue that I have is that, when you 
get youngsters that are released from Oak Hill for violent 
offenses or for repeat offenses--you know, been locked up for 
auto theft or UUV for seven or eight times, that sort of 
thing--they go into a group home. And we are not given 
information as to who they are, what group home they were put 
in, and so forth. We don't know who is in these homes.
    And when you wind up with situations where all of a sudden 
you get an outbreak of robberies or auto thefts or whatever, 
and you are trying to figure out what it is that is going on, 
it is very difficult when people are being reintroduced into 
the community and you don't know.
    We are not looking for a lot, but I don't think that it is 
asking too much to at least have the name of the individual who 
was in custody for robbery that has been released and put in a 
group home in somebody's neighborhood; so if there are crimes 
committed and so forth, that we have access to that 
information.
    Now, the law maybe would say one thing, but the AG's office 
has clearly told us we can't have access to that, and we have 
had conversations around it. There is obviously some confusion 
around what we can and cannot have.
    And again, we are talking about the youth that have been 
committed, if there are any particular conditions at the time 
of their release, if they should be back into the group home by 
a certain time or, you know, stay away from certain areas or 
people or whatever. It is good to know, so that we can make 
sure that they are staying consistent with whatever those terms 
are.
    Ms. Norton. Very touchy issue. I don't dare make a 
recommendation on it; except I know the presumption has to be 
that this is a child, and whatever we do, we have to make sure 
this child is treated as a child, instead of branding them so 
early that he says, ``What use is it? They already are calling 
me a criminal.'' So we begin there.
    But unless a system like this begins--and here, I am not 
talking about the District, alone. The reason that you see 
legislators going to penalties that are outrageous for children 
is because those of us who believe in a system for children, 
for children, haven't found ways to meet some of the concerns 
that, on balance, really don't interfere with confidentiality.
    So I would really ask very much for that to be done, or 
else we are going to find--you are trying to move people back 
into our neighborhoods. You know, if in fact you could say that 
there are special ways in force to make sure that such children 
do not get into trouble again, you will not have every ANC 
commissioner in the city telling you ``NIMBY.''
    So I mean, it has to be faced, because you have an order 
that has to move many of these children back to neighborhoods, 
and nobody ever wants such a child. And the more you can say 
about what you have done, while safeguarding the privacy of the 
child, the family, and his identity as a child, while saying to 
the community that the cops know certain minimal things, or 
that the juvenile justice system knows it, the greater, it 
seems to me, ease you will have in moving people back.
    I only have a couple more questions. Just let me ask this 
notion about the NSA and the buffer zone. I love notions of 
``win-win.'' That is why I like what Mr. Cardin is doing. You 
know, he is a good neighbor. He is trying to think of a way to 
satisfy his constituents, while keeping in mind our concerns.
    And your testimony, Mr. Schiraldi, talked about our needing 
only 25 acres out of 800.
    Mr. Schiraldi. I think it is 888, is the exact number of 
acres.
    Ms. Norton. Again, you know, everybody understand how this 
got done: it is the Federal Government that said, ``This is 
where you go on this 800 acres.''
    I just said to Ben before he went to vote--taking my vote 
along with him, such as it was--[laughter]--I just asked him, 
you know, the way we do things in the Congress is almost always 
incrementally. Would there be any reason not to do the 25-acre 
buffer zone, and then move on as we find the wherewithal to the 
other issue? Is there any reason why those 25 acres--they must 
be talking about acres close to their own perimeter--couldn't 
be simply turned back to them?
    Mr. Schiraldi. No, in fact, if you look at the map, the 
buffer zone they want is where Oak Hill--where the current 
locked facility is now.
    Ms. Norton. Oh.
    Mr. Schiraldi. So I think that in some respects, even 
though that is not an immediate solution, in some respects for 
us it is the best place to give up, because we are almost 
definitely not building there.
    Ms. Norton. So we are tearing that down.
    Mr. Schiraldi. No, I mean, we have to build something 
first.
    Ms. Norton. Right.
    Mr. Schiraldi. But once we build that, we don't----
    Ms. Norton. But we are not necessarily building that close 
to the NSA facility.
    Mr. Schiraldi. No, if we are smart when we do our 
negotiations, if we are able to come to some consensus around 
this, we will specifically pick the site that is least 
convenient for NSA--you know, I mean, least convenient for them 
to want, most convenient for them not to want.
    Ms. Norton. I think you have moved us forward on that.
    Finally, Judge Hamilton, I didn't quite understand. On page 
5 of your testimony, you brought to our attention a concern you 
have about the transfer of more children out of the juvenile 
justice system into the adult criminal system; and that even 
after your commission report.
    Judge Hamilton. Right.
    Ms. Norton. I wish you would elaborate on it, and why you 
think that happened, and why you are against it.
    Judge Hamilton. Well, the law was relaxed so as to give to 
the city the benefit that certain persons who were charged as 
juveniles for purpose of a transfer hearing were not capable of 
being rehabilitated. So these children would go into that 
hearing with the presumption against them, that they could not 
be rehabilitated. And it would be up to the children, of course 
with the assistance of their lawyer, to overcome that 
presumption.
    And really, the presumption, if there is a presumption--
there need not be any presumption, but if there is a 
presumption, the presumption should be that they are capable of 
being rehabilitated.
    So the purpose of the amendment was to make it easier to 
get transfer determinations from the court, to permit these 
children to be transferred into the adult criminal justice 
system.
    Ms. Norton. Is there any age limit on that?
    Judge Hamilton. Yes. Yes, there is an age limit on it, but 
given the age limit, if the child falls within the parameter of 
the age limit, then the child has to overcome, if he is 
referred for transfer.
    Ms. Norton. Now, how do they know whether the child 
deserves a presumption of incapable of rehabilitation? How is 
that done?
    Judge Hamilton. It is just automatic, by operation of law.
    Ms. Norton. Is that Constitutional? Doesn't somebody have 
to show it, or something? Or is it by operation of the crime 
the child has committed?
    Judge Hamilton. It is by operation of law. If the child is 
referred for transfer, then that child is presumed, for the 
purpose of that transfer hearing, not to be capable of being 
rehabilitated. And that was one of the major concerns in our 
recommending that no such presumption be applied to a child.
    And so, but notwithstanding our recommendation, that is a 
part of the present law. And that will have the effect of 
moving more children out of the juvenile justice system, and 
into the adult criminal justice system.
    Ms. Norton. Thank you very much. I just want to say how 
helpful all of your testimony has been. And to the extent that 
we have seemed befuddled by some of what we have heard, or on 
my part appeared to have been critical of parts of our system, 
it is not because the answers are apparent to me. I think you 
have a very, very hard job. And I just want to assure you that 
I know I speak for the chairman when I say that we stand ready 
to be helpful.
    One of the reasons I want the controlled study is if there 
is a controlled study that shows that, for example, the kinds 
of things you are doing in continuum of care work, then that is 
the kind of thing I would be willing to try to get extra money 
for.
    Mr. Schiraldi. Great.
    Ms. Norton. Again, I want to thank all of you for coming, 
and for this very helpful testimony. And this hearing is 
adjourned.
    Judge Satterfield. Thank you.
    Mr. Schiraldi. Thank you very much.
    [Whereupon, at 12:10 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Jon C. Porter and 
additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4770.066

[GRAPHIC] [TIFF OMITTED] T4770.067

                                 <all>

</pre></body></html>
